May 17, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-0001
By eFile

Re: Project Veritas Action Fund v. Rollins, No. 20-1598
Dear Mr. Harris:
The petitioner in the above-captioned case hereby gives blanket consent to
the filing of briefs amici curiae in support of petitioners, respondents or neither
party.
Sincerely,

/s/ Benjamin Barr
Benjamin Barr

Counsel of Record

ben@barrklein.com
(202) 595-4671
cc: Counsel for Respondent

444 N. Michigan Ave., Ste. 1200
Chicago, Illinois 60611
www.barrklein.com

